OFFICE OF INSPECTOR GENERAL
 For the Millennium Challenge Corporation




AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION
PROGRAMS IN CAPE VERDE
AUDIT REPORT NO. M-000-09-002-P
March 31, 2009




WASHINGTON, DC
Office of Inspector G


Office of Inspector General
  for the Millennium Challenge Corporation



March 31, 2009

Mr. Rodney Bent
Acting Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Mr. Bent:

This letter transmits the Office of the Inspector General’s final report on the Audit of the
Millennium Challenge Corporation’s programs in Cape Verde. In finalizing the report, we
considered your written comments to our draft and included those comments in their entirety in
Appendix II of this report.

The report contains seven audit recommendations for corrective action. We consider that
management decision and final action have been reached for Recommendations 1, 2, 3, 4, and
6 because MCC has provided the OIG with documentation to show as evidence of their
improvement. In addition, management decision was reached for Recommendations 5 and 7
but final action will not be taken until MCC provides additional documentation as support of its
improvement.

I appreciate the cooperation and courtesy extended to my staff during this audit.

Sincerely,


Alvin A. Brown /s/
Assistant Inspector General
Millennium Challenge Corporation
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective(s).............................................................................................................. 3

Audit Findings ................................................................................................................. 4

Is the Millennium Challenge Corporation
Program in Cape Verde Achieving Its Targets?................................................................ 4

          The Watershed Management and
          Agricultural Support Program May
          Not Achieve Its Targets ......................................................................................... 5

          The Monitoring and Evaluation Plan
          for MCA-CV Is Not Effective.................................................................................. 8

          Infrastructure Projects Experienced
          Many Problems During Compact
          Implementation...................................................................................................... 9

Did the Millennium Challenge Corporation’s
Reporting on the Program in Cape Verde
Provide Stakeholders with Complete and
Accurate Information on the Progress of the
Program and the Results Achieved? .............................................................................. 11

          MCC Does Not Specify the Date of
          Financial Data in Its Reports ............................................................................... 12

Evaluation of Management Comments ....................................................................... 13

Appendix I – Scope and Methodology ........................................................................ 15

Appendix II – Management Comments ....................................................................... 17
SUMMARY OF RESULTS
On July 4, 2005, the Millennium Challenge Corporation (MCC) and the Government of
Cape Verde signed a 5-year agreement totaling approximately $110 million, which
entered into force on October 17, 2005. The goal of the compact is to encourage
economic growth and reduce poverty by increasing agriculture production in specific key
areas, increase integration of the internal market, reduce transportation costs, and
develop the private sector. The Cape Verdean government designated the Millennium
Challenge Account–Cape Verde (MCA-CV) as the accountable entity that would have
the legal authority to oversee the compact during the compact period (see page 2).

The objectives of the audit were to determine whether (1) the MCC program in Cape
Verde is achieving its targets, and (2) MCC’s reporting on the program in Cape Verde
provided stakeholders with complete and accurate information on the progress of the
program and the results achieved (see page 3).

The audit team found that the MCA-CV is not achieving all of its targets. Specifically,
although MCA-CV has begun implementing the Watershed Management & Agricultural
Support (WMAS) project, the program has experienced several limitations that may
affect the project’s success. For example, the farmers may not be able to fully benefit
from the drip irrigation system if they are unable to receive water from the dikes and
reservoirs. In addition, the monitoring and evaluation (M&E) plan does not measure the
success of the program, which may prevent MCC from readily determining the
effectiveness of the compact programs and lead to poor management of the program.
The infrastructure projects experienced problems during compact implementation
because MCC completed its due diligence and entered into force before the pre-
feasibility studies were completed, in accordance with its practice. As a result, MCC did
not become aware that the road designs were incomplete until construction had begun.
This caused significant delays and contributed to the re-scoping of the project which
resulted in a reduction of the number of roads and the port projects funded by MCC.
Although the compact was budgeted to fund five roads, MCC will now fund three.
Furthermore, MCC did not provide the correct date for the cumulative disbursement
reported in its Quarterly Status Reports (QSR), which could confuse the public;
especially those using the information for further analysis (see pages 5, 8, 9 and 12).

The report includes seven recommendations to MCC’s vice president of Compact
Implementation and the Congressional and Public Affairs departments: (1) require the
Government of Cape Verde to provide a formal statement showing how it will fund the
remaining portions of the WMAS project; (2) require MCA-CV to revise its current head
of household list and include all local residents who are eligible to apply for the loans;
(3) department request MCA-CV to develop--and provide to MCC--a set of requirements
to prevent farmers from obtaining loans for drip irrigation if they do not have adequate
access to water; (4) provide documentation on the location or spending of $73,864 that
was obligated to the microfinance institution, Soldifogo; (5) develop a policy to clarify the
modification of the Indicator Tracking Tables and the M&E plan; (6) develop a policy to
conduct a pre-feasibility study prior to entry into force; and (7) specify, in its Quarterly
Status Reports, the dates that the cumulative disbursements represent (see pages 7, 8,
9, 11, and 12).




                                                                                           1
BACKGROUND
Established in January 2004 by the Millennium Challenge Act of 2003, the Millennium
Challenge Corporation (MCC) is a U.S. Government corporation designed to work with
some of the poorest countries in the world. Based on its performance against MCC's 16
policy indicators 1 , a country may become eligible to receive a compact, which is a 5-
year agreement between MCC and the country to fund specific programs to reduce
poverty and stimulate economic growth. One of MCC’s goals is to assist eligible
countries that have developed well-designed programs with clear objectives,
benchmarks to measure progress, and a plan for effective monitoring and objective
evaluation of results.

On July 4, 2005, MCC and the Government of Cape Verde signed a 5-year agreement
totaling approximately $110 million, which entered into force on October 17, 2005, and is
scheduled to end on October 17, 2010. The goals of the Cape Verde compact are as
follows:
     • Encourage economic growth and reduce poverty by increasing agriculture
        production in specific key areas,
     • Increase integration of the internal market,
     • Reduce transportation costs, and
     • Develop the private sector.

The Cape Verdean government designated the Millennium Challenge Account-Cape
Verde (MCA-CV) as the accountable entity that would have the legal authority to
oversee the compact during the compact period.

MCA-CV intends to implement three different projects. The first is the Water
Management and Agricultural Support (WMAS) project, totaling approximately $10.8
million. This project will focus on increasing the irrigation of crops, providing technical
assistance to farmers to improve agriculture, and increasing access to credit for
agricultural businesses. The second is the Infrastructure project, totaling approximately
$78.8 million. This project will focus on renovating the Port of Praia, constructing five
roads, and building four bridges to strengthen the fishing and agricultural communities.
The last is the Private Sector Development project, totaling approximately $7.2 million.
This project will focus on increasing the competitive advantage through private
investment, increasing access to credit through the development of microfinance
institutions, and increasing financial intermediation by expanding access to the primary
market for Government securities. 2

Section 609(b) (1)(C) of the Millennium Challenge Act requires the eligible countries to
establish regular benchmarks to measure progress toward achieving objectives. MCA-
CV achieves this requirement by creating a monitoring and evaluation (M&E) plan that
includes project objectives, performance indicators, and targets to efficiently and
effectively monitor the compact. In addition, MCC is required to submit an annual report

1
   When MCC selected Cape Verde as an eligible country, its decision was based on 16
indicators. In fiscal year (FY) 2007, MCC began to use 17 indicators to select eligible countries.
2
  The remaining $13.3 million relates to the following: $4.9 million for monitoring and evaluation
and $8.4 million for program administration.


                                                                                                2
to Congress, and include in the report an assessment of the progress that the country
makes during each year toward achieving the compact objectives. MCC works with the
country to ensure that proposed programs are reasonable, measurable, and attainable.

AUDIT OBJECTIVES
The Office of the Assistant Inspector General for the Millennium Challenge Corporation
conducted this audit as a part of its FY 2008 audit plan. The objectives of this audit were
to answer the following questions:

•   Is the Millennium Challenge Corporation program in Cape Verde achieving its
    targets?

•   Did the Millennium Challenge Corporation’s reporting on the program in Cape Verde
    provide stakeholders with complete and accurate information on the progress of the
    program and the results achieved?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         3
AUDIT FINDINGS
Is the Millennium Challenge Corporation program in Cape Verde
achieving its targets?
The MCA-CV program is not achieving all of its targets. Specifically, none of the targets
have been met for the Watershed Management & Agricultural Support (WMAS) projects
and Infrastructure projects. In addition, indicators and targets have not been finalized,
for the Private Sector Development (PSD) project. Furthermore, at the time of the audit,
MCA-CV and MCC were in the process of revising the scope of the project. Lastly, MCC
and MCA-CV were still revising the M&E plan during fieldwork.

In January 2008, MCC and MCA-CV substantially reduced the scope of the compact
programs, particularly for the Infrastructure and PSD projects. According to MCC, the
scope was reduced as a result of delays and budget shortfalls. The Infrastructure
component required several revisions because of budget constraints and delays;
specifically, MCC decided to fund the construction of three roads instead of five and to
complete one, instead of two phases of the port project. For the PSD component, MCA-
CV will implement only $2.08 million of the originally budgeted $7.2 million because
funding was allocated to other compact projects, specifically the port project. As a result
of the project being re-scoped, MCC re-analyzed its projected impact of the compact; the
projections were reduced from an estimated annual income of $10 million in 5 years to
$6.9 million in 5 years.

Although MCA-CV is currently implementing three WMAS project activities, it has
experienced several limitations that may affect the projects’ success. In fact, MCC and
MCA-CV have identified a potential problem that may arise in the future as the project’s
implementation continues. First, farmers have begun to apply for drip irrigation loans
even though the waterworks construction is not complete. Second, MCA-CV lacks a
system to select all eligible loan applicants. As a result, some loan applicants in the
intervention areas may not be eligible to apply for micro-credit loans if their names do
not appear on the Ministry of Agriculture’s head of household list. Finally, according to
MCC, the projects may experience a possible budget shortfall owing to the devaluation
of the U.S. dollar.

In addition, the M&E plan—the compact’s primary management tool—was ineffective.
Contrary to MCC’s Guidelines for Monitoring and Evaluation, MCC has approved
changes to the indicators and targets that MCA-CV made to the Indicator Tracking
Table 3 each quarter. These changes prevent the MCC and MCA-CV from determining
the compact program’s success.

Lastly, even though infrastructure projects were assessed during compact development,
in accordance with its compact implementation process, MCC completed its due
diligence and entered into force before the pre-feasibility studies were completed. As a
result, the infrastructure project suffered a cost increase because the roads were
redesigned during compact implementation. This led to budget shortfalls and ultimately
3
  The Indicator Tracking Table reports specific results against projected targets, explaining
significant deviations from the targets.


                                                                                           4
contributed to MCC and MCA-CV reducing the number of roads and activities on the port
being funded by MCC.

These issues, which affected the MCA-CV program’s M&E plan and the Cape Verdean
Compact program’s efficiency and effectiveness, are discussed below.


The Watershed Management and
Agricultural Support Program
May Not Achieve Its Targets

    Summary: MCC has experienced several impediments to the implementation of the
    Watershed Management and Agricultural Support (WMAS) project activities, which
    may affect the project’s success. According to the revised M&E plan, dated
    December 11, 2008, the WMAS project is designed to increase agricultural
    productivity in three specific intervention areas in the islands of Santo Antão, Fogo,
    and São Nicolau, with a targeted increase in income in these areas of US$700,000 by
    Year 5. Several causes, such as devaluation of the U.S. dollar, time constraints, and
    the lack of a system to select all eligible loan applicants, may prevent the project from
    being successful. As a result, the project may not achieve its targets or have a
    significant impact in the targeted areas by the end of the compact.

MCA-CV’s implementation of the WMAS project has experienced numerous
impediments that may affect the project’s success. In fact, MCC and MCA-CV have
identified a potential problem that may arise in the future as the project’s implementation
continues. MCA-CV may encounter possible funding shortfalls for several activities of
the WMAS project and may need the Government of Cape Verde to fund the remainder
of the project once MCC depletes its funding. MCA-CV will need an additional $1.5
million to complete the remainder of the activities, mainly the water distribution system
and materials for the postharvest center.

Second, although an MCC official stated
that construction of all watershed
infrastructures will not be completed until
May      2009,    MCA-CV       has   begun
implementing the Access to Credit activity,
thereby encouraging farmers to apply for
loans even though agribusiness training
and dike, reservoir, and water distribution
system 4 construction has not been
completed in all the intervention areas. At
the end of October 2008, 9 of the 17
farmers on the island of Fogo who applied
for loans to purchase drip irrigation              The top of a completed reservoir, coupled with
materials did not have access to water.            drip irrigation equipment, which will bring
Logically, farmers should have access to           more water to arid farmland. Photograph
                                                   taken by an OIG auditor in October 2008.

4
 Farmers need the water distribution system (i.e., the water meters and valves) to receive water
at their farms.


                                                                                                   5
water before receiving loans to purchase drip irrigation materials (see chart 1).

Finally, at the time of the audit, there was not a system in place to determine which
farmer resided in the intervention areas. According to MCC officials, all farmers and
agribusinesses who are Cape Verdean nationals and are assisted by MCA-CV programs
in the intervention areas of Santo Antão, Fogo, and São Nicolau are eligible borrowers.
However, the household list that the credit providers will use to determine loan eligibility
contains only the names of the heads of households in these areas. Furthermore,
because the loans are not restricted to the heads of households, the list from Caixa
Economica—the entity responsible for managing the project—should include not merely
the head of household, but every farmer who works in the intervention areas.

According to the revised M&E plan, dated December 11, 2008, the WMAS project is
designed to increase agricultural productivity in three specific intervention areas in the
islands of Santo Antão, Fogo, and São Nicolau in the short to medium term, with a
targeted increase in income in these areas of $700,000 by Year 5.

Several factors contributed to the WMAS impediments. First, according to MCA-CV
officials, the devaluation of the U.S. dollar caused the funding shortfall for some activities
within the WMAS project and funding may not be sufficient to pay for all the components
of the project. The officials explained that MCC and the Government of Cape Verde
have taken steps to prevent this from happening, such as proposing that the
Government fund the remaining works needed in the islands of Fogo and São Nicolau
and purchase equipment for the three postharvest centers. The Government also sent a
letter to MCC confirming its commitment to fund the remaining portion of the program
once MCC depletes its funding. However, the letter did not specify how the government
will allocate funds for the project.

Furthermore, MCC did not provide sufficient oversight in the implementation of the
WMAS project activities. It is MCC’s policy to give the compact country ownership of
implementing the projects, and as the result, sometimes does not focus on activities
where the MCA has contracted work. Consequently, MCC overlooked how Caixa
Economica and Soldifogo, the microfinance institution (MFI) who first received funding
for the access to credit program, disbursed funds to 17 loan applicants. Although MCC
and MCA-CV decided not to issue the funds since construction was not complete, MCC
could not provide information about who made the decision or who currently holds the
funds: Caixa Economica or the MFI. 5 In addition, MCC could not track the funding for a
$73,864 loan obligated to the MFI Soldifogo for the 17 farmers in Fogo. Furthermore,
MCC could not provide the Office of Inspector General with any mechanism that will be
used to prevent MFIs from granting loans to farmers whose areas do not have
constructed watershed infrastructures. Lastly, MCC and MCA-CV could not explain why
all the farmers were not included on the list, nor were they aware of this problem.

Lastly, project delays also contributed to the WMAS project’s challenges. According to
MCC and MCA-CV officials, introduction of a new procurement system and procedures
to the Ministry of Agriculture and local offices prolonged the learning curve and delayed
implementation. In addition, it took several months to obtain the necessary approvals
from the Ministry of Agriculture to begin environmental studies, which MCC required

5
  According to the contract between MCA-CV and Caixa Economica, Caixa Economica is
required to hold the funds until the MFI is ready to issue the funds to the loan applicant.


                                                                                            6
before MCA-CV could begin construction of the dikes and reservoirs. Furthermore, it
took additional time to negotiate with the farmers for land for the reservoirs.

As the result of the project’s ongoing limitations, WMAS may not achieve its intended
impact. For example, even though MCA-CV could finish building the dikes and
reservoirs, the farmers may not be able to benefit fully from the drip irrigation system if it
does not have pipes and other filtration systems to connect to the farms. In addition,
MCA-CV could finish constructing the postharvest centers, but the centers would not be
functional without the necessary equipment such as storage and packaging materials;
hence, farmers will not be able to preserve their crops before sending them to the
market. For these reasons, this audit report makes the following recommendations:

        Recommendation No. 1: We recommend that the Millennium Challenge
        Corporation’s vice president of the Compact Implementation department require
        the Government of Cape Verde to provide a formal statement showing how it will
        fund the remaining portions of the WMAS project 6 .

        Recommendation No. 2: We recommend that the Millennium Challenge
        Corporation’s vice president of the Compact Implementation department require
        the Millennium Challenge Account-Cape Verde to revise its current head of
        household list and include all local residents who are eligible to apply for the
        loans.

        Recommendation No. 3: We recommend that the Millennium Challenge
        Corporation’s vice president of the Compact Implementation department request
        MCA-CV to develop--and provide to MCC--a set of requirements to prevent
        farmers from obtaining loans for drip irrigation if they do not have adequate
        access to water.

        Recommendation No. 4: We recommend that the Millennium Challenge
        Corporation’s vice president of the Compact Implementation department provide
        documentation on the location or spending of $73,864 that was obligated to the
        microfinance institution, Soldifogo 7 .




6
  As the result of the OIG’s finding, MCC has provided documentation from the Government of
Cape Verde, which explains how it will fund the remaining portion of the WMAS project.
7
  As the result of the OIG’s finding, MCC has received documents from Caixa Economica that
shows that 8 of the loan applicants received funding because they had access to water, while 9
loan applicants were denied funding until they had access to water or drip irrigation.
Furthermore, MCC provided support to show that Caixa Economica has received the remainder
of funding that it disbursed to Soldifogo.


                                                                                                 7
The Monitoring and Evaluation
Plan for MCA-CV May Not
Measure Program Success
    Summary: The Monitoring and Evaluation (M&E) Plan, one of the compact’s
    management tools, does not measure the success of MCA-CV programs.
    Specifically, MCA-CV made changes to the indicators and targets for each quarter and
    failed to submit all Indicator Tracking Tables (ITT). Although MCC stated that it
    withheld funds from MCA-CV because it did not submit its quarterly M&E tracking
    documents on time, further review of supporting documents revealed that funds were
    not withheld. The MCA-CV agreement dictates that monitoring and evaluation is a
    key component of the compact, as it allows program managers to identify problems
    early on and make corrections during implementation in order to improve the ultimate
    impact of programs. The changes made and the lack of tracking documents hindered
    MCA-CV and MCC from identifying problems and mitigating risks during
    implementation.

The M&E plan for the Cape Verde compact, at the time of the audit, does not measure
the compact’s success. Many of the targets and indicators in the Indicator Tracking
        8
Tables (ITT), the mechanism used to track M&E Plan results, changed in quarters 8,
10, and 11. These were the only quarters that MCA-CV submitted ITTs to MCC during
this audit period. In addition, MCA-CV began submitting ITTs when it was in the process
of revising its M&E plan. When revised M&E plans were compared to the ITTs, very few
of the indicators and targets matched.

According to the Disbursement Agreement between MCC and MCA-CV, as a conditions
precedent, MCA-CV shall submit any applicable reporting set forth in its M&E Plan for
the relevant disbursement period. Hence, MCC stated that it withheld funding for M&E
expenses from MCA-CV for not submitting the ITTs during quarters 1 through 7. 9
However, review of supporting documentation revealed that M&E expenses totaling
approximately $512,000 were never withheld.

According to the compact agreement and MCC’s Guidelines for Monitoring and
Evaluation Plans:
     the managing unit shall conduct regular assessments of program performance
     to inform MCA-Cape Verde, Project Managers, and MCC of the progress under
     the program and to alert these parties of any problems, so as to be able to
     make any mid-course corrections during implementation in order to improve the
     ultimate impact of programs. The assessment will report actual results
     compared to the targets on the indicators referenced in the monitoring
     component, explain deviations between these actual results and targets, and in
     general, serve as a management tool for implementation of the program. With
     respect to any data and reports received by MCA-CV, MCA-CV shall promptly
     deliver such reports to MCC along with any other related documents, as
     specified in Annex-III or as may be requested from time to time by MCC.

8
  The Indicator Tracking Table reports specific results against projected targets, explaining
significant deviations from the targets.
9
  MCA-CV did not submit the quarter 9 ITT to MCC because both entities were working to revise
the indicators and targets during this period.


                                                                                           8
MCC does not have a policy that specifies certain guidelines its staff should follow when
revising indicators and targets in its M&E plans or ITTs. Nevertheless, MCC mentioned
that minor changes can be made to ITTs without making changes to the M&E Plan. An
MCC official explained that when the M&E Plan is revised, the changes made to the
various ITTs will be incorporated into the revised M&E Plan and MCC is aware of the
changes that are being made, because its staff works closely with MCA-CV. However,
MCC is currently working on a policy that addresses M&E issues, particularly, making
revisions to the indicators and targets of an M&E plan.

As a result of the numerous changes, MCC cannot readily determine the effectiveness of
the compact programs or determine whether any mid-course corrections might be
needed to improve the programs’ ultimate impact. These changes can also lead to poor
management of the compact programs because the M&E plan is considered the primary
management tool. For these reasons, this audit makes the following recommendation:

   Recommendation No. 5: We recommend that the Millennium Challenge
   Corporation's vice president of the Compact Implementation department develop
   a policy to clarify the modification of the Indicator Tracking Tables and the
   Monitoring and Evaluation Plan.


Infrastructure Projects
Experienced Many Problems
During Compact Implementation
 Summary:       MCC did not perform a complete due diligence process of the
 infrastructure projects. According to the Memorandum of Understanding between
 MCC and the U.S. Army Corps of Engineers (USACE), due diligence should have
 included an assessment of all project documents. Because the infrastructure projects
 in the Cape Verde compact were the first to be undertaken by MCC, there was not a
 clear compact development policy, which would include conducting a thorough pre-
 feasibility study prior to signing the compact or entry into force. As a result,
 construction delays occurred, and costs increased by approximately $6.0 million
 because of the redesign of the roads and additional building materials, equipment, and
 resources needed to build each road. The five roads that MCA-CV initially intended to
 build were reduced to three roads to offset funding shortfalls.

MCC did not perform a complete due diligence process of the infrastructure projects .
Primarily, the roads included in the infrastructure projects were selected from an existing
project under the World Bank. During compact development, a World Bank consultant
was acquired to conduct a (1) feasibility study, (2) environmental impact report, (3) final
designs, and (4) construction documents for the road projects. MCC employed U.S.
Army Corps of Engineers (USACE) to review project documents prepared by the
consultant to identify any problems with the project and ensure that the consultant
performed quality work. However, at the time that USACE completed the review; the
consultant had fulfilled only 75 percent of the designs for the roads, and did not have the
final road designs prepared.
Even though a clear compact development policy was not in place when this compact
was signed, the Memorandum of Understanding between MCC and USACE outlined



                                                                                         9
their expectations for performing technical
assistance for MCC in the following areas:
    • Technical feasibility study
    • Technical solutions
    • Project engineering
    • Project budget
    • Project timeline
    • Environmental and social impact
       assessments
    • Consultation
    • Road safety issues
    • Project implementation capabilities.

Because the infrastructure projects in the A photograph of the completed portion of Road 4
                                                being built on the island of Santiago. This picture
Cape Verde compact were the first to be was taken by an OIG auditor in October 2008.
undertaken by MCC, there was not a clear
compact development policy, which would
include conducting a thorough pre-feasibility study prior to signing the compact or entry
into force. MCC hired USACE to conduct due diligence on the roads. According to the
Memorandum of Understanding between MCC and USACE, MCC wanted the review of
the consultant’s work completed as soon as possible so that it could sign a compact with
Cape Verde. However, MCC signed the compact before completing the pre-feasibility
stage knowing that there was a certain amount of risk involved. For example, the
supervisory firm and contractor for the roads project discovered that the designs
provided to them by the World Bank consultant were incomplete. As the incomplete
designs were not identified during pre-feasibility studies, numerous pricing disputes
arose between the contractor and the supervisory firm for additional work not included in
the original contract.

As a result of an unclear compact development policy, the MCA-CV redesigned the
roads, which caused the execution of numerous contract revisions, and project costs
increased from $13.8 to $17.1—a $3.3 million increase—(24%) 10 (see chart 2). Project
costs included the redesign and additional resources, such as personnel, equipment,
and building materials, needed to build the roads. Because of the increased costs of the
projects and the lack of additional funding, MCC and MCA-CV decided to rescope the
infrastructure project; the five roads were reduced to three, and the budgeted costs for
the omitted roads were reallocated to the remaining three roads. According to the
supervisory firm for the roads project, numerous contract revisions would not have been
needed if the original designs were not incomplete. Therefore, we are making the
following recommendation:




10
  This amount includes variation orders (contract revisions) signed through December 21, 2008,
because the value of the variation orders created after June 30, 2008, was significant. The
Inspector General used an average daily exchange rate of 78 Cape Verde escudos to 1 U.S.
dollar. Based on historical currency exchange rates from March 30, 2008 to December 21, 2008.


                                                                                             10
Chart 2. Increase in Infrastructure/Roads Project Costs
                                                          Chart 2: Increase in Infrastructure- Roads Project Costs
  Amount of Increase (in USD)

                                $18,000,000.00
                                $16,000,000.00
                                $14,000,000.00
                                $12,000,000.00
                                $10,000,000.00
                                 $8,000,000.00
                                 $6,000,000.00
                                 $4,000,000.00
                                 $2,000,000.00
                                          $-




                                                                                                     3/8/2008
                                                                6/25/2007




                                                                                                                3/29/2008
                                                                            11/26/2007



                                                                                         9/11/2007




                                                                                                                            10/21/2008



                                                                                                                                         9/20/2008



                                                                                                                                                     10/20/2008



                                                                                                                                                                  12/21/2008
                                                   3/27/06 &
                                                     4/3/06



                                                  Original Contract Contract Contract Contract Contract Contract Contract Contract Contract
                                                 Combined Revision Revision Revision Revision Revision Revision Revision Revision Revision
                                                  Awards     #1       #2       #3       #4       #5       #6       #7       #8       #9
                                                                            Date Original Award or Contract Revision Signed
                                            Cummulative Total




                          Recommendation No. 6: We recommend that the Millennium Challenge
                          Corporation's vice president of the Compact Implementation department develop
                          a policy to conduct a pre-feasibility study prior to entry into force.



Did the Millennium Challenge Corporation’s reporting on the
program in Cape Verde provide stakeholders with complete and
accurate information on the progress of the program and the
results achieved?
MCC provided complete information of the results of the compact programs in Cape
Verde to its stakeholders, such as Congress and non-governmental organizations
(NGOs); however, MCC reported ambiguous dates of its financial data in its Quarterly
Status Report (QSR) that it provides to Congress and the public. In terms of the
progress of the compact programs, MCC uses quarterly reports and other management
tools used to track implementation in its report to Congress as well as its quarterly status
reports (QSR). In addition to reporting on MCA-CV’s progress in the QSR, MCC also
provided success stories on one of the compact programs that it funded (E-Government
System), where citizens in both the country and those living abroad could access
personal files, such as birth certificates, online. The audit team visited the office to
confirm the information provided in MCC’s Success Stories.

However, when reporting its financial information, MCC does not always specify the
correct date from which the information was drawn. This lack of information may
confuse stakeholders who use this information to conduct their own analysis.




                                                                                                                                                                               11
MCC Does Not Specify
the Date of Financial Data
in Its Reports

 Summary: MCC did not provide the correct date for the cumulative disbursement
 reported in its Quarterly Status Reports (QSR). According to the Millennium
 Challenge Act of 2003, Section 612(a)(1)(B), MCC shall make available to the public,
 on at least a quarterly basis, the amount of assistance provided to the entity. Several
 changes to the reporting process during the year contributed to the inaccurate
 reporting of financial data. As a result, the information may be confusing to
 stakeholders and prompt them to make inaccurate decisions.

MCC did not provide the correct date for the cumulative disbursement reported in its
Quarterly Status Reports (QSR). MCC stated that the data in the reports reflected
cumulative disbursement as of the last day of the previous quarter. However, the
financial data do not always reflect the last date of the prior quarter. For example, in its
January to March 2008 QSR, MCC reported the “Disbursement to Date” amount as
$15,286,599, even though the data are based on figures from February 15, 2008.

According to the Millennium Challenge Act of 2003 Section 612(a)(1)(B),
       the Corporation shall make available to the public on at least a quarterly basis,
       the amount of assistance provided to the entity.

MCC did not have a consistent process of reporting financial data in its Quarterly Status
Reports (QSR). The inconsistent reporting was primarily due to several changes in its
reporting process during the past fiscal year. MCC stated that the different divisions
within the corporation requested various disbursement and redisbursement information
at various times of the year, and that the Administration and Finance department, which
provides the data, does not always know how that information will be used.

As MCC’s stakeholders use the data to analyze compact programs, the inconsistent
reporting of financial data could confuse the public. Therefore, we are making the
following recommendation:

   Recommendation No. 7: We recommend that the Millennium Challenge
   Corporation’s vice president of the Congressional and Public Affairs department
   specify, in its Quarterly Status Reports, the dates that the cumulative
   disbursements represent.




                                                                                         12
EVALUATION OF
MANAGEMENT COMMENTS
The MCC provided written comments to our draft report that are included in their entirety
in Appendix II. In its response, MCC agreed with five out of the seven recommendations
in the draft report.

In response to Recommendation No. 1, MCC agreed with the recommendation and
considers this recommendation already closed because it provided the OIG with copies
of the letters from MCA-CV and the Minister of Agriculture who pledged to provide
approximately 106 million CVE to finance the water distribution system and postharvest
centers in Sao Nicolau and Fogo. The OIG agrees and considers that management
decision was made and final action taken on the recommendation.

In response to Recommendation No. 2, MCC concurred with the recommendation;
however, it stated that it had a system in place at the time of the audit to determine
which farmers resided in the intervention areas. It further explained that the system only
identified heads of households. Although the OIG agrees that MCC identified the head
of households, MCC did not have a comprehensive system that could identify other
potential loan applicants who lived in the intervention areas. The OIG agrees that MCC
provided documentation dated March 5, 2009--after the audit fieldwork. The OIG
considers that management decision was made and final action taken on the
recommendation.

In response to Recommendation No. 3, MCC did not concur with the recommendation.
It stated that it provided the OIG with information on March 5, 2009 (after the completion
of the audit fieldwork) that of the seventeen (17) loan applicants, the microfinance
institution, SOLDIFOGO provided eight (8) loans to farmers who had sufficient access to
water from non-MCA sources, while nine (9) loans were not made and the balance of the
funds were returned to by SOLDIFOGO to Caixa Economica until water becomes
available.

During the OIG’s visit to Cape Verde in October 2008, we were informed that seventeen
(17) farmers had been approved for loans by SOLDIFOGO. In a meeting with MCC on
January 13, 2009, it confirmed that the farmers applied for loans to purchase drip
irrigation equipments even though they did not have access to water, and MCA-CV
decided not to issue the funds to the loan applicants since they did not have access to
water. It was not until March 5, 2009 (after the audit fieldwork ended) that MCC
informed the OIG it had disbursed funds to eight (8) of the loan applicants. As the OIG
has received documentation to support MCC’s statement, it considers that management
decision was made and final action taken on the recommendation.

In response to Recommendation No. 4, MCC did not concur; however, MCC has
provided the OIG with a letter, dated January 15, 2009, written by Caixa Economica to
SOLDIFOGO requiring the latter to return remaining funds within 30 days or pay a
penalty fee of one percent. As the OIG has received the document, it considers that
management decision was made and final action taken on the recommendation.



                                                                                       13
In response to Recommendation No. 5, MCC concurs with the recommendation and is
currently updating its M&E guidelines to reflect a consistent process for M&E Plan
modifications. However, it does not agree that the M&E Plan is the compact’s primary
management tool. The OIG agrees with MCC and will revise the statement by stating
the M&E Plan is one of MCC’s management tools. Management decision was made,
but final action was not reached on this recommendation because MCC has not finalized
it revision of the M&E guidelines.

In response to Recommendation No. 6, MCC concurs with the principle of the
recommendation and has already incorporated a pre-feasibility study into its compact
development process. However, it believed that the OIG miscalculated the projected
costs and would like to review the OIG’s data to support our finding. The OIG agrees
with MCC’s calculation and has made the revision in the final report. As the OIG has
received the document, it considers that management decision was made and final
action taken on the recommendation.

In response to Recommendation No. 7, MCC concurs with the recommendation and has
made the changes to its Quarterly Status Report to include the dates for the cumulative
disbursements. Although the OIG considers that MCC has made a management
decision on this recommendation, final action for the will require that MCC provide a
copy of the most recent Quarterly Status Report to the OIG.




                                                                                    14
SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this performance audit of the Millennium
Challenge Corporation’s (MCC) program in Cape Verde in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective(s). We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective(s). The audit reviewed the targets from entry into force on
October 17, 2005, through June 30, 2008. Through June 30, 2008, MCC had disbursed
$17.6 million of the $110 million in compact funds to Millennium Challenge Account-
Cape Verde (MCA-CV).

We conducted the audit at MCC headquarters in Washington, DC, and at MCA-CV in
Praia, Cape Verde, during a site visit in October 2008. During the site visit, we
interviewed farmer beneficiaries in Santo Antão, who participated in the agribusiness
training. We also met with contractors for the roads and bridges, and visited the sites.

To reach our conclusions regarding MCA-CV’s two projects, we relied on interviews with
MCC staff, MCA-CV staff, contractors, and implementing entities. We used these
interviews to help assess the program’s work plans, financial reports, quarterly progress
reports, the Monitoring and Evaluation plan, and information shared with Congress and
the public. We also examined supporting documentation from the contractors and
implementing entities’ reports and MCA-CV quarterly progress reports.

We examined the internal control environment by identifying and assessing the relevant
controls. We tested for various controls, including supporting documentation, verification
procedures, and guidance. In addition, we reviewed prior audit reports that considered
relevant findings.


Methodology
To answer the two audit objectives, audit steps were established to determine the
following:

•   Whether MCA-CV had established plans and milestones to monitor and implement
    the compact’s projects;
•   Whether the program was on schedule according to the established plan and
    milestones; and
•   Whether data reported by MCC, MCA-CV, and the implementing partners to
    Congress and the public reflected the program’s progress.

Specifically, we performed the following activities:




                                                                                       15
•   Interviewed MCC personnel, MCA-CV staff, and implementing partners to gain an
    understanding of the overall objectives of the program and its challenges;

•   Conducted a detailed examination of supporting documentation for the three projects
    to verify that intended results were being achieved. The examination consisted of
    reviewing relevant documentation, conducting interviews, and making site visits;

•   Interviewed beneficiaries to determine how MCC-funded programs had affected their
    lives; and

•   Determined the potential impact of achieving or not achieving selected milestones
    and targets.




                                                                                    16
MANAGEMENT COMMENTS
Date:




Date:          March 30, 2009

To:            Alvin Brown, Assistant Inspector General, Millennium Challenge Corporation

From:          Michael Casella, Acting Vice President, Millennium Challenge Corporation,
               Department of Administration and Finance /s/

Subject:       Management Response to the Draft Audit of MCC Programs in Cape Verde


This memorandum serves as the Management Response of the Millennium Challenge
Corporation (MCC) to the Office of the Inspector General’s (MCC OIG) draft audit of MCC
programs in Cape Verde. Where MCC is able to make a management decision we have
done so in this response. In other cases we will we will issue a determination as part of
MCC’s Management Decision to the final audit report.

Recommendation No. 1: We recommend that the Millennium Challenge Corporation’s vice
president of the Compact Implementation department require the Government of Cape
Verde to provide a formal statement showing how it will fund the remaining portions of the
WMAS project.

MCC Response: MCC concurs with this recommendation, and considers it to already be
closed. MCC provided the OIG on March 3, 2009 with copies of letters from MCA-CV and
the Minister of Agriculture pledging to provide approximately 106 million CVE to finance the
water distribution systems and postharvest centers on Sao Nicolau and Fogo. This amount
is approximately equal to $1.3 million to $1.5 million and is sufficient to cover the shortfall.

Recommendation No. 2: We recommend that the Millennium Challenge Corporation’s vice
president of the Compact Implementation department require the Millennium Challenge
Account-Cape Verde to revise its current head of household list and include all local
residents who are eligible to apply for the loans.

MCC Response: MCC concurs with the recommendation however we do want to point out
that there was a system in place at the time of the audit to determine which farmers resided
in the intervention areas. This system however was not comprehensive as it only identified
heads of households. MCC notified the OIG in writing (dated March 5, 2009) that MCA
Cape Verde is developing additional procedures that will enable the local delegate of the
Ministry of Agriculture to confirm that the applicant is an eligible farmer with a farm in the
watershed area.

Recommendation No. 3: We recommend that the Millennium Challenge Corporation’s vice
president of the Compact Implementation department request MCA-CV to develop, and
provide to MCC, a set of requirements to prevent farmers from obtaining loans for drip
irrigation if construction of the dikes and reservoirs is not complete and water distribution
systems are not installed in the intervention area.

MCC Response: MCC does not concur with this recommendation, and disagrees with its
underlying findings.

The OIG Report states that “At the end of October 2008, 17 farmers on the island of Fogo
have applied for loans to purchase drip irrigation materials even though the dike, reservoir,
and water distribution systems in that area are not complete. Logically, farmers should
have access to water—water at the gate—before receiving loans to purchase drip irrigation
materials.”

MCC informed the OIG on March 5, 2009 that of the seventeen (17) loans applied for, the
microfinance institution SOLDIFOGO made eight (8) loans upon determining that those
farmers had sufficient access to water from non-MCA sources. Nine (9) loans were not
made and the balance of funds was to be returned by SOLDIFOGO to Caixa Economica
until water becomes available. Because microfinance institutions (including SOLDIFOGO)
in accordance with the delegate of the ministry of agriculture are ensuring that sufficient
access to water is available before approving loans, MCC does not concur that an
additional set of requirements as recommended is needed at this time.

Recommendation No. 4: We recommend that the Millennium Challenge Corporation’s vice
president of the Compact Implementation department provide documentation on the
location or spending of $73,864 that was obligated to the microfinance institution Soldifogo.

MCC Response: MCC does not concur with this recommendation. As we stated above,
we do not agree that there is an issue with the microfinance institutions giving loans before
water is available and therefore do not think this recommendation is warranted.

Recommendation No. 5: We recommend that the Millennium Challenge Corporation's vice
president of the Compact Implementation department develop a policy to clarify the
modification of the Indicator Tracking Tables and the Monitoring and Evaluation Plan.

MCC Response: MCC concurs with the recommendation and is currently updating its
M&E guidelines to reflect a consistent process for M&E Plan modifications. However, MCC
does not agree with the OIG’s characterization of the M&E plan as the compact’s primary
management tool as stated by the OIG in this report (under the M&E Plan section). MCC
considers the M&E plan one of several management tools – the MCA project-level detailed
work plans and detailed financial plans being others –used together in MCC’s oversight of
the program. The Indicator Tracking Table (ITT) is the primary performance reporting tool.

Recommendation No. 6: We recommend that the Millennium Challenge Corporation's vice
president of the Compact Implementation department develops a policy to conduct a pre-
feasibility study prior to entry into force.
MCC Response: MCC concurs in principle with the recommendation, and has already
incorporated into its compact development process a pre-feasibility study step. Conducting
such studies is now part of the process for all new compacts. However, we do not concur
with the underlying finding in this report which is the OIG’s basis for its recommendation.
As we state below we believe the OIG may have miscalculated the projected costs, and
MCC requests that the OIG provide additional data to support its finding.

According to the OIG Report: “As a result of unclear compact development policy, the
MCA-CV redesigned the roads, which caused the execution of numerous contract
revisions, and project costs increase from $13.8 million to $19.8--,a $6.0 million increase—
(44%) (see chart 2). Project costs included the redesign and additional resources, such as
personnel, equipment, and building materials, needed to build the roads.”

MCC has not previously seen this data, but understands that these figures represent both
the construction and supervision contracts for the Roads Activity, including 9 Variation
Orders through December 2008, using an average exchange rate of 78 CVE to $1 USD.
MCC does not believe the second figure is accurate. MCC agrees with an initial total of
$13.8 for the contracts, but calculates an adjusted cost of $17.1 million, an increase of
approximately $3.3 million or 24%. However, without access to OIG data we cannot
identify the source of the apparent miscalculation.

Recommendation No. 7: We recommend that the Millennium Challenge Corporation’s vice
president of the Congressional and Public Affairs department specify, in its Quarterly
Status Reports, the dates that the cumulative disbursements represent.

MCC Response: MCC concurs with the recommendation and has made changes to its
quarterly status report to include the dates for the cumulative disbursements.
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
